2311 Douglas Street
Omaha, Nebraska 68102-1214

COCKLE

Le ga l Bri e fs E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-54

KAROLYN GIVENS, et al.,
Petitioners,

Vv.
MOUNTAIN VALLEY PIPELINE, LLC,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 6th day of August, 2019, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICI CURIAE OWNERS’ COUNSEL OF
AMERICA, PENNEAST NEW JERSEY PROPERTY OWNERS, INSTITUTE FOR JUSTICE, AND CATO INSTITUTE IN
SUPPORT OF PETITIONERS in the above entitled case. All parties required to be served have been served by Priority Mail.
Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
Robert H. Thomas Anthony Della Pelle
Counsel of Record Joseph W. Grather
Loren A. Seehase MCKIRDY, RISKIN, OLSON
DAMON KEY LEONG & DELLA PELLE, P.C.
KUPCHAK HASTERT 136 South Street
1003 Bishop Street Morristown, New Jersey 07960
16th Floor (973) 539-8900
Honolulu, Hawaii 96813 adellapelle@mckirdyriskin.com
(808) 531-8031
rht@hawaiilawyer.com Counsel for Amici Curiae

Subscribed and sworn to before me this 6th day of August, 2019.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

ae i E Elite Qudiow hk, Chae

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38365
Counsel for Petitioners:

Christopher Stephen Johns

Johns & Counsel PLLC

14101 Highway 290 West, Suite 400A
Austin, TX 78737

512-399-3150
cjohns@johnsandcounsel.com

Counsel for Respondent:

Colin Emmet Wrabley
Reed Smith LLP

225 Fifth Avenue
Pittsburgh, PA 15222
412-288-3548
ewrabley@reedsmith.com
